     Department of Homeland Security





     FEMA Region VI Should Ensure the Cost Effectiveness 

          of Texas Hazard Mitigation Grant Projects 





DD-13-10                                           May 2013

                         OF.F ICE OF INSPECTOR GENERAL
                             Department uf Hmneland Security



                                  MAY     3 2013


MEMORANDUM FOR:              George A. Robinson
                             R



FROM:
                             Assi tant Inspector Ge
                             Office of Emergency Management Oversight

SUBJECT:                     FEMA Region VI Should Ensure the Cost Effectiveness of
                             Te)(05 Hazard Mitigation Grant Projects
                             Audit Report Number 00-13-10

The objective of this report is to summarile the results of four Hazard Mitigation Grant
Program (HMGP) audits we conducted in the State of Texas and to identify additional
conditions that warrant further FEMA Region VI attention. Our audit objectives for the
four audits were to determine whether (1) the subgrantees accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines, (2) the projects met FEMA eligibility requirements,
and (3) project management complied with applicable regulations and guidelines.

We conducted this performance audit between July 2012 and January 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions b~sed upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the referenced disasters.

We summarized the results offour HMGP audits we conducted in the State of Texas
(see table 1), identified additional conditions that warrant further FEMA Region VI
attention, interviewed FEMA and Texas Division of Emergency Management (TDEM)
officials, and performed other procedures considered necessary to ~ccomplish our
objective. We did not assess the adequacy of internal controls applicable to these grant
audits because it was not necessary to accomplish our audit objective. However, we did
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   gain an understanding of FEMA and TDEM’s adherence to HMGP regulations and
   guidelines relevant to the four audits we completed.


                                        BACKGROUND

   FEMA provides HMGP grants on a cost-shared basis to eligible applicants within a State
   declared eligible for Federal assistance to implement measures designed to reduce the
   loss of life and property from natural disasters. FEMA’s eligibility criteria require
   applicants to have a FEMA-approved hazard mitigation plan and require projects to be
   cost-effective, comply with environmental and historic preservation requirements, and
   provide a long-term beneficial impact. Eligible applicants include State and local
   governments, certain private nonprofit organizations and institutions, and Indian tribes
   or tribal organizations. Although FEMA is primarily responsible for determining project
   eligibility, the State as grantee is required to demonstrate that the project is cost-
   effective. The grantee also has primary responsibility for project management and the
   accountability of funds.

   As a result, of three major disasters the President declared between June 2001 and
   January 2006 in the State of Texas, the four subgrantees listed in table 1 applied for and
   received HMGP grant awards from TDEM, a FEMA grantee, between January 2003 and
   March 2008. These grant awards were for mitigation projects that FEMA approved to
   (1) relocate and replace critical electrical and mechanical systems above flood elevations
   and protect basements with perimeter flood protection, (2) acquire and remove
   residential properties to mitigate future losses, (3) build residential safe rooms, and
   (4) construct a drainage improvement structure to mitigate future flooding losses.


                                      RESULTS OF AUDIT

   We audited $68 million of FEMA HMGP funds that TDEM awarded to four subgrantees
   in the State of Texas. Table 1 shows that we questioned $17.7 million, or 26 percent of
   the $68 million. The majority of our questioned costs related to projects that were not
   cost-effective and, therefore, did not meet FEMA eligibility requirements. Further, a
   scope limitation in our audit of the University of Texas, MD Anderson Cancer Center,
   precluded us from reviewing the cost effectiveness of six projects totaling $31.4 million.
   Had we been able to review the cost effectiveness of these projects, the total amount
   we questioned might have increased significantly.



www.oig.dhs.gov                                2                                         DD-13-10

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Table 1. Summary of Four Texas HMGP Audits 


                                                   # of
         Subgrantee &               Disaster     Projects        Project         Award         Questioned
    Report Number/Date              Number       Audited          Type          Amount           Costs
 University of Texas, MD
 Anderson Cancer Center,              1379            6          Retrofit      $31,431,066      $   596,670
 DD-11-01, October 20101
 City of Austin,                      1606,                    Acquisition &
                                                      2                         11,609,411          831,629
 DD-11-13, April 2011                 1624                      Demolition
 Panhandle Regional
 Planning Commission,                 1606            1        Safe Rooms        8,629,000                  0
 DD-12-03, November 2011
 Comal County,
                                      1606            1          Drainage       16,302,516       16,302,516
 DD-12-13, June 2012
              Totals                    3           10                         $67,971,993      $17,730,815
   1
       We were unable to complete our audit scope for the University of Texas, MD Anderson Cancer Center.

   The following summarizes our findings and recommendations in the three reports that
   included reportable conditions.

         •	 In the University of Texas, MD Anderson Cancer Center report, DD-11-01, we
            questioned $596,670 in unsupported costs ($510,491) and ineligible contract
            costs ($86,179). However, we could not determine the cost effectiveness, and
            thus the eligibility, of six projects totaling $31.4 million because FEMA did not
            retain documentation to support benefit cost analyses (BCA). If not for this audit
            scope limitation, we may have questioned significantly more of the award.

         •	 In the City of Austin report, DD-11-13, we questioned $831,629, comprised of
            $596,150 for one project that was not cost-effective and $235,479 for ineligible
            labor costs.

         •	 In the Comal County report, DD 12-13, we questioned the entire $16.3 million
            grant because the project was not cost-effective.

   The reportable conditions we identified occurred because FEMA and TDEM did not
   always comply with Federal regulations or FEMA guidelines, and TDEM did not always
   fulfill its grantee responsibilities. Therefore, FEMA Region VI should—




www.oig.dhs.gov                                           3	                                          DD-13-10

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


        •	 Ensure that its regional States develop, document, and implement procedures
           for demonstrating that HMGP projects are cost-effective and will not cost more
           than the estimated benefits as required by 44 CFR 206.434(c)(5), 1 and

        •	 Require TDEM to develop, document, and implement procedures to ensure that
           it reimburses subgrantees for only eligible costs.

    Finding A: Grantee Responsibilities in Evaluating Project Cost-Effectiveness

    Two of the four audits we conducted (City of Austin and Comal County) revealed
    deficiencies in the BCA review and approval procedures at both the grantee and FEMA
    levels. Further, we were unable to review these procedures in our audit of the
    University of Texas, MD Anderson Cancer Center because BCA records were not
    available to us. The State requested FEMA to perform the BCAs for all approved
    projects. FEMA hired a contractor to conduct the BCAs necessary for determining the
    eligibility of MD Anderson’s projects, but neither FEMA nor its contractor could provide
    the BCA support data that we requested. Because the BCA records were not available
    for our review, we could not determine the eligibility of the six MD Anderson projects
    totaling $31.4 million. Therefore, based on the results of three of the four Texas HMGP
    audits that we completed, TDEM and FEMA need to improve their BCA review and
    approval procedures.

    FEMA establishes its cost-effective analyses on the principle that a project has to return
    more money (benefit) over its life than it costs initially. The return is money saved
    because a mitigation measure reduces or prevents future damages. FEMA’s guidance
    further describes “cost-effective” as having a benefit-to-cost ratio of one or greater.

    Federal regulation 44 CFR 206.434(c)(5) states that, to be eligible for the HMGP, a
    project must be cost-effective and substantially reduce the risk of future damage,
    hardship, loss, or suffering resulting from a major disaster. The regulation further states
    that the grantee must demonstrate this by documenting that the project—

        •	 Addresses a problem that has been repetitive, or a problem that poses a
           significant risk to public health and safety if left unsolved;

        •	 Will not cost more than the anticipated value of the reduction in both direct
           damages and subsequent negative impacts to the area if future disasters were to
           occur;

    1
    Disasters prior to fiscal year 2003 used 44 CFR 206.434(b)(5).
www.oig.dhs.gov                                         4	                                 DD-13-10
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



        •	 Has been determined to be the most practical, effective, and environmentally
           sound alternative after consideration of a range of options;

        •	 Contributes, to the extent practicable, to a long-term solution to the problem it
           is intended to address; and

        •	 Considers long-term changes to the areas and entities it protects, and has
           manageable future maintenance and modification requirements.

    This requirement specifically places responsibility on the grantee for demonstrating that
    a project is cost-effective and will not cost more than the estimated benefits. However,
    TDEM did not perform its responsibilities in 8 of the 10 projects we audited (6 MD
    Anderson projects, 1 City of Austin project, and 1 Comal County project).

    For all of the MD Anderson projects, TDEM requested that FEMA perform the BCAs.
    Additionally, TDEM did not adequately review the BCA data submitted for one of two
    City of Austin projects and the Comal County project. If TDEM had properly reviewed
    these BCAs, it would have determined that—

        •	 The City of Austin did not use the factors and assumptions in the BCA module
           that it claimed it would use; and

        •	 Comal County omitted engineering costs when calculating the BCA, and did not
           perform its BCA on a net present value basis as Federal regulations required
           (44 CFR 206.434(c)(5)(ii)). 2

    Conversely, TDEM demonstrated that the Panhandle Regional Planning Commission
    project and one City of Austin project were cost-effective, indicating that TDEM is
    capable of performing its grantee responsibilities as described in 44 CFR 206.434(c)(5).
    Therefore, FEMA should ensure that all regional States develop and implement project
    review and approval processes and procedures to ensure that grantees demonstrate
    that a project is cost-effective. This report is not making a similar recommendation for
    the region to improve its own procedures because, in our Comal County audit report,
    we recommended that the region develop and implement project review and approval
    processes and procedures to ensure that project eligibility requirements are enforced in
    the future.

    2
    FEMA approved this Comal County project using grant funds from a major disaster declared in 

   September 2005. Therefore, Federal regulations dated October 1, 2004, applied at the time. 

www.oig.dhs.gov                                      5	                                             DD-13-10
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


    Finding B: Grant Management Responsibilities

    TDEM did not always fulfill its grant management responsibilities. As stated previously,
    TDEM did not always ensure that projects were cost-effective as Federal regulations
    required. In addition, TDEM reimbursed subgrantees for ineligible project costs.
    According to 44 CFR 13.37(a)(2), the grantee is required to ensure that subgrantees are
    aware of requirements imposed on them by Federal regulations. Further, 44 CFR 13.40(a)
    requires the grantee to manage the day-to-day operations of subgrant activity and
    monitor subgrant activity to ensure compliance with applicable Federal requirements.

    City of Austin

    TDEM reimbursed the City of Austin $235,479 in ineligible indirect costs that we
    questioned in our audit report. According to the City of Austin, city departments
    routinely include indirect costs when billing each other for services. According to TDEM,
    it discussed this issue with FEMA and, based on information FEMA provided, decided
    not to question these costs. FEMA did not recall discussing this matter with TDEM, but
    determined that TDEM should not have reimbursed these indirect costs to the City and
    deobligated these funds based on our audit.

    Comal County

    As previously stated, we determined that Comal County’s project was ineligible because
    it was not cost-effective. In addition, of the $16.3 million that FEMA approved for this
    project, TDEM reimbursed Comal County for engineering and design (E&D) costs not
    included in the approved scope of work. Specifically, TDEM reimbursed the County
    more than $148,780 in E&D costs between December 2010 and June 2012. 3

    TDEM officials admitted that they did not adequately review the County’s BCA data or
    the detailed breakdown of project costs because of the project’s complexity. Therefore,
    TDEM was not aware that the County did not include E&D costs in its revised estimate
    submitted to justify additional funding, which FEMA subsequently approved. As a
    result, TDEM’s reimbursement of E&D costs constituted payment for costs outside the
    approved scope of work. Even after the County informed TDEM that it did not include
    E&D costs in the project’s cost estimate, TDEM decided to reimburse the County for
    these costs anyway. A TDEM official said that TDEM allowed these costs because they
    were not a duplication of benefits. Additionally, the TDEM official said that program

    3
    On December 8, 2010, FEMA approved additional funding for the Comal County project based on the
   County’s revised project cost estimate that specifically excluded E&D costs. The additional funding
   brought the total approved grant amount to $16.3 million.
www.oig.dhs.gov                                          6                                             DD-13-10
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   guidance available at the time was not clear on this point. FEMA officials agreed that
   TDEM should not have reimbursed these E&D costs to the County.

   Conclusion

   TDEM did not always fulfill its grantee responsibilities.

       •	 TDEM did not demonstrate that projects were cost-effective in 8 of the 

          10 projects we audited. 


       •	 TDEM did not thoroughly review the BCA data that its applicants prepared. As a
          result, TDEM submitted two ineligible projects for HMGP funding (one City of
          Austin project and one Comal County project) and requested that FEMA perform
          BCAs on all MD Anderson projects.

       •	 TDEM did not always ensure that subgrantees were aware of requirements
          imposed on them and did not always manage the day-to-day operations of
          subgrant activity and monitor subgrant activity to ensure compliance with
          applicable Federal requirements. As a result, TDEM reimbursed subgrantees for
          $384,259 in ineligible project costs.

   In summary, the State, as grantee, is required to demonstrate that the project is cost-
   effective. The grantee also has primary responsibility for project management and the
   accountability of funds. TDEM needs to improve its BCA review procedures and
   enhance its ability to monitor subgrant activity to ensure compliance with applicable
   Federal requirements and FEMA guidelines.


                                      RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region VI:

   Recommendation 1: Ensure that its regional States develop, document, and implement
   procedures for demonstrating that HMGP projects are cost-effective and will not cost
   more than the estimated benefits as required by 44 CFR 206.434(c)(5) (finding A).

   Recommendation 2: Require TDEM to develop, document, and implement procedures
   that will ensure that it reimburses subgrantees for only eligible costs (finding B).



www.oig.dhs.gov                                  7	                                     DD-13-10

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

   We provided a draft report in advance to FEMA and TDEM officials and discussed it at an
   exit conference with FEMA on January 22, 2013, and with TDEM on February 5, 2013.
   FEMA officials agreed with the findings and recommendations and TDEM officials
   provided no comment to the findings and recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for the recommendations. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until we receive and
   evaluate your response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Tonda Hadley, Director; Moises Dugan, Audit
   Manager; and Lori Smith, Auditor-in-Charge.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                               8                                        DD-13-10

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                           APPENDIX
                                    Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region VI
   Audit Liaison, FEMA (Job Code G-12-048)

   Grantee

   Chief, Texas Division of Emergency Management

   State

   Texas State Auditor

   Congress

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure




www.oig.dhs.gov                             9                                  DD-13-10

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
